No. 19-619

In the

Supreme Court of the United States
CISCO SYSTEMS, INC.,
Petitioner,
V.
SRI INTERNATIONAL, INC.,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
BRIEF IN OPPOSITION
JOHN W. THORNBURGH
FRANK ALBERT
FISH & RICHARDSON, P.C.
12390 El Camino Real
San Diego, CA 92130
DAVID M. HOFFMAN
FISH & RICHARDSON, P.C.
Suite 810
111 Congress Avenue
One Congress Plaza
4th Floor
Austin, TX 78701

FRANK E. SCHERKENBACH
Counsel of Record
FISH & RICHARDSON, P.C.
One Marina Park Drive
Boston, MA 02210
(617) 521-7883
scherkenbach@fr.com
PROSHANTO MUKHERJI
FISH & RICHARDSON, P.C.
One Marina Park Drive
Boston, MA 02210

HOWARD G. POLLACK
FISH & RICHARDSON, P.C.
Suite 500
500 Arguello Street
Redwood City, CA 94063

Counsel for Respondent

QUESTION PRESENTED
Whether both the Federal Circuit and district
court below correctly found that respondent’s patent
claims are not directed to “only the abstract idea of
collecting and analyzing data” (Pet. i) and, instead,
are directed to a “specific technique” (Pet. App. 12a13a) of data analysis that solves a technological
problem and improves computer functionality?

ii
RULE 29.6 STATEMENT
Respondent SRI International, Inc. states that
there is no parent or publicly held company owning
10% or more of its stock.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
RULE 29.6 STATEMENT.......................................... ii
TABLE OF AUTHORITIES ...................................... iv
INTRODUCTION .......................................................1
STATEMENT OF THE CASE ....................................2
REASONS FOR DENYING THE PETITION............9
I.

THE QUESTION PRESENTED IS
PREMISED
ON
A
MISCHARACTERIZATION OF THE
DECISION BELOW .............................................9

II. THERE IS NO “INTRA-CIRCUIT SPLIT” .......14
III. THE DECISION BELOW IS CORRECT
AND A ROUTINE APPLICATION OF
ALICE .................................................................18
IV. THIS CASE IS A POOR VEHICLE FOR
THE COURT’S REVIEW ...................................21
CONCLUSION ..........................................................24

iv
TABLE OF AUTHORITIES
Page(s)
CASES
Alice Corp. Pty. Ltd. v. CLS Bank
International,
573 U.S. 208 (2014) ...................................... passim
DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) ........................8, 16
Electric Power Group, LLC v. Alstom S.A.,
830 F.3d 1350 (Fed. Cir. 2016) .................. 7, 14, 15
Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327 (Fed. Cir. 2016) ............................16
SRI International, Inc. v. Cisco Systems,
Inc., 254 F. Supp. 3d 680 (D. Del. 2017),
aff’d in part and vacated in part, 918
F.3d 1368 (Fed. Cir. 2019) .................................6, 7
SRI International Inc. v. Internet Security
Systems, Inc.,
401 F. App’x 530 (Fed. Cir. 2010) ..........................5
SRI International Inc. v. Internet Security
Systems, Inc.,
647 F. Supp. 2d 323 (D. Del. 2009) .......................4
STATUTES
35 U.S.C. § 101 ......................................................1, 21

v
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITY
USPTO, October 2019 Update: Subject
Matter Eligibility (Oct. 17, 2019),
https://www.uspto.gov/sites/default/files
/documents/peg_oct_2019_update.pdf ...............17

INTRODUCTION
Both the Federal Circuit and the district court
carefully analyzed the scope of respondent’s patent
claims, and recognized that, “[c]ontrary to Cisco’s
assertion,” the claims were “not directed to just
analyzing data from multiple sources to detect
suspicious activity.” Pet. App. 12a-13a (emphasis
added); see id. at 50a-51a. Rather, as the Federal
Circuit explained, the claims are “directed to using a
specific technique,” for preventing large-scale
cyberattacks by “analyz[ing] specific types of data on
the network” and “integrating those reports using
hierarchical monitors.” Id. at 12a-13a; see id. at 51a52a.
That “specific technique” represented a
significant improvement in computer functionality—
even being described by the Department of Defense as
“a quantum leap improvement over” previous efforts.
Id. at 7a (quoting CAJA1273 (273:7-9)).1
The petition, starting with the Question
Presented, is framed on an entirely different premise.
It asks “[w]hether patent claims that recite only the
abstract idea of collecting and analyzing data are
patent-ineligible under 35 U.S.C. § 101 and Alice
[Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208
(2014)].”
Pet. i (emphasis added).
Likewise,
throughout its petition, petitioner repeatedly
characterizes the claims as “merely” (id. at 10), “only”
(id. at 18), and “simply” (id. at 22) reciting the
abstract idea of collecting and analyzing data. Yet
this case presents no such question, and it involves no
such patent. As both the Federal Circuit and district
court found below, the claims at issue involve a
1

Citations to “CAJA” refer to the Joint Appendix filed below.

2
“specific technique” “directed to an improvement in
computer network technology.” Pet. App. 12a-13a; see
also id. at 51a-52a. At most, this case presents the
question whether that claim-specific determination is
correct. But petitioner does not even ask this Court
to review that determination. Instead, petitioner
asks this Court to decide a made-up question.
There is no reason to do so. Applying settled
precedent from this Court that petitioner does not
challenge—the Alice framework (see 573 U.S. at
217)—both the Federal Circuit and district court
correctly concluded that the claims at issue are patent
eligible. See Pet. App. 11a-15a; id. at 51a-52a. That
application of settled law to the particular claims at
issue does not warrant further review in this Court.
And that no doubt explains why petitioner has tried
to invent an entirely different case to present to this
Court. The petition should be denied.
STATEMENT OF THE CASE
1. Respondent SRI International, founded in 1946
as Stanford Research Institute (SRI), is a non-profit
organization devoted to the research and
development of socially beneficial technologies.
CAJA1225-26. SRI has patented numerous groundbreaking inventions over the years, including the
computer mouse, HDTV, and touch types for the deaf.
CAJA1227.
Since 1980, respondent has led significant
research in the area of computer network security.
CAJA1228. In 1996, respondent began working on a
program to address a persistent problem in
cybersecurity: the difficulty of detecting hacking
attacks on an interconnected network of computers.
CAJA1229-30. One example of a way this problem

3
arises is when “a hacker may try logging in to several
computers or monitors in a network,” but the “number
of login attempts for each computer may be below the
threshold to trigger an alert, making it difficult to
detect such an attack by looking at only a single
monitor location in the network.” Pet. App. 6a.
Existing network defense systems struggled to
prevent large-scale attacks on interconnected
networks because they were unable to sift through
and analyze the quantity of incoming information
without sacrificing the performance and speed of the
overall network. CAJA33198.
After “perform[ing] considerable research and
development,” respondent conceived a novel solution
to this problem. Pet. App. 7a. This solution involved,
identifying the “‘particular categories of network
traffic data . . . well suited [to] determining whether
network traffic was suspicious,’” and then conducting
a “hierarchical analysis,” which involved a unique
arrangement of network monitors correlating data in
a way that made it possible to “‘profile global
malicious or anomalous activity that is not visible
locally.’” Id. at 51a (first alteration in original)
(citations omitted).
As embodied by SRI’s scientists, this development
was considered revolutionary. The Department of
Defense’s Advanced Research Projects Agency, which
partially funded the project, described it as a “gem in
the world of cyber defense” and “a quantum leap
improvement over” previous technology. CAJA12341235
(234:21-235:3),
CAJA1240
(240:22-25),
CAJA1272-1273 (272:13-273:17). Private businesses
also recognized the importance of SRI’s technology,
with licenses eventually being taken by IBM,

4
Intel/McAfee, and Oki.
CAJA1253 (253:6-12),
CAJA1291 (291:2-11).
Respondent’s research eventually led to the two
patents at issue in this case: the ’615 patent, titled
“Network Surveillance,” and the ’203 patent, titled
“Hierarchical Event Monitoring and Analysis.” The
Federal Circuit used claim 1 of the ’615 patent as the
“representative claim,” which reads as follows:
A computer-automated method of hierarchical
event monitoring and analysis within an
enterprise network comprising:
deploying a plurality of network monitors in
the enterprise network;
detecting, by the network monitors,
suspicious network activity based on
analysis of network traffic data selected
from one or more of the following categories:
{network packet data transfer commands,
network packet data transfer errors,
network packet data volume, network
connection requests, network connection
denials, error codes included in a network
packet,
network
connection
acknowledgements, and network packets
indicative of well-known network-service
protocols};
generating, by the monitors, reports of said
suspicious activity; and
automatically receiving and integrating the
reports of suspicious activity, by one or
more hierarchical monitors.
Pet. App. 8a-9a.
The validity of these patents have been litigated
and upheld on numerous occasions.
In SRI

5
International Inc. v. Internet Security Systems, Inc.,
647 F. Supp. 2d 323 (D. Del. 2009), a jury found the
patents valid and infringed, a decision the Federal
Circuit affirmed on appeal, SRI International Inc. v.
Internet Security Systems, Inc., 401 F. App’x 530 (Fed.
Cir. 2010). The patents have also undergone two
reexaminations each before the Patent Office, which
reached the same result as the jury and confirmed the
patentability of all claims.
CAJA32734 ¶ 47,
CAJA32745 ¶ 65, CAJA32814 ¶ 207; Pet. App. 9a.
2. Petitioner Cisco is the world’s largest computer
networking company. Although petitioner wrote to
SRI expressing interest in respondent’s technology
and met with one of its inventors, petitioner did not
ultimately pursue a license to use the technology.
CAJA1484-1486
(484:13-486:25),
CAJA5027.
Instead, it developed a series of commercially
available products which were functionally identical
to it. Pet. App. 10a (noting “[t]he jury found that Cisco
intrusion protection system (‘IPS’) products, Cisco
remote management services, Cisco IPS services,
Sourcefire IPS products, and Sourcefire professional
services
directly
and
indirectly
infringed
[respondent’s patents]” (footnote omitted)).
After first informing petitioner of its infringement,
respondent filed suit in the District Court for the
District of Delaware alleging that petitioner had
infringed the ’203 and ’615 patents. Petitioner
unsuccessfully moved for summary judgment on
several issues, including that the claims are ineligible
for patent protection and that the claims had been
anticipated. Id. at 9a. In rejecting the former
argument, the court rejected petitioner’s assertion
that the claims were directed to the abstract idea of
monitoring and analyzing data. Id. at 50a-51a.

6
Instead, the court stressed that the claims are “more
complex” and “are better understood as being
‘necessarily rooted in computer technology in order to
overcome a problem specifically arising in the realm
of computer networks.’” Id. at 51a (citation omitted).
Following a trial, a jury found that various Cisco
products directly and indirectly infringed the asserted
claims.
The jury awarded respondent a 3.5%
reasonable royalty for a total of $23,660,000 in
compensatory damages. The jury also found by clear
and
convincing
evidence
that
petitioner’s
infringement was willful. Id. at 10a.
Following the verdict, the district court awarded
enhanced damages of twice the verdict. See id. As
support for this ruling, the court cited “Cisco’s
litigation conduct, its status as the world’s largest
networking company, its apparent disdain for SRI
and its business model, and the fact that Cisco lost on
all issues during summary judgment and trial,
despite its formidable efforts to the contrary.” SRI
Int’l, Inc. v. Cisco Sys., Inc., 254 F. Supp. 3d 680, 723
(D. Del. 2017), aff’d in part and vacated in part, 918
F.3d 1368 (Fed. Cir. 2019). The court also awarded
attorneys’ fees based on petitioner’s willful
infringement and egregious litigation conduct. Id. at
723-24.
The district court explained that, while it had
“rarely awarded fees” in patent cases, it determined
that attorneys’ fees were appropriate here because
“Cisco’s litigation strategies . . . created a substantial
amount of work for both SRI and the court, much of
which work was needlessly repetitive or irrelevant or
frivolous.” Id. at 723 (footnotes omitted). “[E]ven a
cursory review of the record,” the court stressed,
showed that Cisco “crossed the line in several

7
regards” and “pursued litigation about as
aggressively as the court has seen in its judicial
experience.”
Id. at 722.
The court further
“inventoried Cisco’s aggressive tactics, including
maintaining nineteen invalidity theories until the eve
of trial but only presenting two at trial and pursuing
defenses at trial that were contrary to the court’s
rulings or Cisco’s internal documents.” Pet. App. 28a.
3. The Federal Circuit affirmed the district
court’s rulings regarding anticipation, enhanced
damages and patent-eligibility. Id. at 1a-35a.
As to patent eligibility, the Federal Circuit applied
the two-step framework set forth in Alice. The
Federal Circuit resolved the issue at “Alice step
one”—which considers “whether the claims at issue
are directed to a patent-ineligible concept such as an
abstract idea”—and held that the claims are “not
directed to an abstract idea.” Id. at 12a. Accordingly,
the court did not reach Alice’s second step, which
“‘consider[s] the elements of each claim both
individually and “as an ordered combination” to
determine whether the additional elements
“transform the nature of the claim” into a patenteligible application.’” Id. (quoting Alice, 573 U.S. at
217); see also id. at 15a.
The court noted that “Cisco argues that the claims
are analogous to those in Electric Power Group, LLC
v. Alstom S.A., 830 F.3d 1350 (Fed. Cir. 2016), and are
simply directed to generic steps required to collect
and analyze data.” Pet. App. 13a-14a. But the Court
“disagree[d]” with this characterization. Id. at 14a.
“Contrary to Cisco’s assertion,” the court found that
respondent’s claims were “not directed to just
analyzing data from multiple sources to detect
suspicious activity.” Id. at 12a-13a (emphasis added).

8
Rather, the court stressed, the claims were “directed
to using a specific technique,” for preventing largescale cyberattacks by “analyz[ing] specific types of
data on the network” and “integrating those reports
using hierarchical monitors.”
Id. at 11a-12a.
Moreover, “the claims are directed to an improvement
in computer network technology”—which are patent
eligible under well-settled law. Id. at 13a.
The court rejected petitioner’s effort to analogize
this case to the Federal Circuit’s prior decision in
Electric Power. There, the court explained, the patent
“claims were drawn to using computers as tools to
solve a power grid problem, rather than improving the
functionality of computers and computer networks
themselves.” Id. at 14a. By contrast, the Federal
Circuit explained, here “the claims are more like the
patent-eligible claims in DDR [Holdings, LLC v.
Hotels.com, L.P., 773 F.3d 1245, 1258 (Fed. Cir.
2014))],” because they “improve[] the technical
functioning of the computer and computer networks
by reciting a specific technique,” rather than simply
“automating a conventional idea on a computer.” Id.
Judge Lourie dissented. Id. at 32a-35a. He did
not disagree with the panel as to the applicable legal
standard or criticize the panel for adopting any new
rule of law. Rather, Judge Lourie disagreed only with
the panel majority’s reading of the particular claims
at issue and, specifically, whether those claims, in
fact, described a “specific technique . . . for improving
computer network security.” Id. at 34a. Based on his
view of the claims, Judge Lourie would have found
that the claims were ineligible under Alice. Id. at 35a.

9
The Federal Circuit denied petitioner’s petition for
rehearing en banc, with no judge dissenting.2
REASONS FOR DENYING THE PETITION
I. THE
QUESTION
PRESENTED
IS
PREMISED ON A MISCHARACTERIZATION
OF THE DECISION BELOW
The most obvious reason to deny the petition is
that this case does not even present the question
raised by petitioner. The Question Presented in the
petition is whether “patent claims that recite only the
abstract idea of collecting and analyzing data” are
patent eligible. Pet. i (emphasis added). Petitioner
seeks review of whether this “new rule of patent law”
is correct, and asserts an “intra-circuit” split with
Federal Circuit precedent rejecting such a “rule.” Id.
at 12, 22. But the decision below adopts no such rule.
To the contrary, the Federal Circuit, like the district
court before it, concluded that the patent claims did
not in fact recite only the abstract idea of collecting
and analyzing data. Pet. App. 12a-13a, 51a. The
petition does not even seek review of that claimspecific determination. But if it did, the petition
would seek no more than fact-bound error correction.
The petition should be denied on that basis alone.
1. The decision below does no more than apply
this Court’s settled precedent to the particular claims
at issue. As this Court has explained, a “generic
computer implementation” of “an abstract idea is not
patentable.” Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208, 216 (2014). No one disputes that.
2

Remand proceedings are underway in the district court
related to willfulness, enhanced damages, and fees owing to a
timing issue not relevant to this petition.

10
Before both the district court and the Federal Circuit,
petitioner argued that the claims at issue in this case
simply recite the abstract idea of “collecting and
analyzing data” on a computer network. Pet. App.
12a-13a, 51a. But the courts below correctly rejected
that characterization.
As the Federal Circuit
explained, “contrary to Cisco’s assertion, the claims
[here] are not directed to just analyzing data from
multiple sources to detect suspicious activity.” Id. at
12a-13a (emphasis added). Rather, they “are directed
to using a specific technique”—“analyz[ing] specific
types of data on the network” and “integrating those
reports using hierarchical monitors.” Id. (emphasis
added). The district court likewise concluded that the
claims were “more complex” than characterized by
petitioner. Id. at 51a.
Petitioner never directly acknowledges those
determinations.
Instead, petitioner repeatedly
characterizes the decision below (at i, 10, 12, 16, 18,
22) as agreeing with its factual premise that the
claims involve only the “abstract idea of collecting and
analyzing data”; and then characterizes the decision
below (at 22, 4) as adopting a “a new rule of patent
law” that such a “basic concept” is patentable. But
that is the exact opposite of what occurred below. As
noted above, both the Federal Circuit and district
court rejected the premise that respondent’s patent
claims recite only the collecting and analyzing of data.
Pet. App. 12a-13a, 50a. The Federal Circuit (id. at
11a-15a) and district court (id. at 50a-52a) then
applied settled and undisputed principles of patent
law to hold the claims were eligible for patent
protection.
Nothing about those case-specific
determinations warrants this Court’s review.

11
2. Petitioner’s mischaracterization of the claims
at issue hinges on omitting or ignoring key limiting
features that define the innovative aspects of
respondent’s technology.
First, the claim identifies the specific network
traffic data categories that the inventors determined
were well-suited for automatic monitoring of
suspicious activity, thereby greatly reducing the
volume of data to be analyzed. Pet. App. 8a (quoting
’615 patent claiming only “analysis of network traffic
data selected from . . . the following categories” and
setting forth a limited number of data categories to
search (emphasis added)).
Before respondent’s
invention, network defense systems struggled to
prevent large-scale attacks due to the very real
problem of having to sift and analyze an
unmanageable amount of data without sacrificing the
performance of the network itself. CAJA33198 ¶ 4.
The identification of specific network traffic data
categories that were well-suited for automatically
identifying suspicious activity greatly reduced the
volume of data to be analyzed, and thus made the
system functional for the first time. CAJA33198-99
¶ 5.
Second, the claim identifies an innovative
structure of hierarchical monitors to first identify,
and then integrate and correlate reports reflecting,
suspicious activity.
This innovation allows
respondent’s technology to detect patterns of
suspicious activity from multiple sources, in a manner
designed to defeat hacking attacks on an integrated
network. Pet. App. 51a.
Thus, as the district court explained, the inventive
concept in respondent’s technology is what is being
monitored (the network traffic categories specifically

12
identified as being well-suited to hierarchical
analysis), where that monitoring happens (the lower
level network monitors), and how the monitoring is
used (via integration at the hierarchical monitors).
Id. at 51a-52a. As it did below, petitioner argues that
the patents in fact “do not list any ‘specific means’ for
detecting suspicious activity or describe a ‘specific
technique’ for ‘improving computer network
security.’” Pet. 14-15 (emphasis added) (citation
omitted). Petitioner is wrong about that, as both the
Federal Circuit and district court concluded. But
even if petitioner were correct, the petition would at
best be seeking fact-bound error correction on a highly
technical issue unique to this case: whether the
claims at issue in fact contain limitations that define
a “specific method” of detecting hacking attacks. That
issue would in no way warrant this Court’s review.
3. Petitioner tries to transform this case into
something more than a fact-bound dispute by
repeatedly mischaracterizing the decision below, and
construing disputed or adverse facts in its favor.
For example, the petition asserts that “[t]he panel
majority (Judge Stoll, joined by Judge O’Malley)
acknowledged that the claims merely ‘recite[] using
network monitors to detect suspicious network
activity . . . , generating reports of that suspicious
activity, and integrating those reports using
hierarchical monitors.’”
Pet. 10 (alterations in
original) (citation omitted). But the panel did not use
the word “merely” and the petitioner’s use of an
ellipsis (highlighted above) is misleading. The ellipsis
omits the phrase “based on analysis of network traffic
data”—which is a key limitation. See Pet. App. 13a.
In fact, the court explained that the patents do not
claim every method of “using network monitors to

13
detect suspicious network activity,” id., and, instead,
relate to a “specific technique” that enumerates
“specific types of data” that are to be analyzed, id. at
12a. The selection of the data to analyze—from all the
many possible sources of data—was a critical
innovation.
Petitioner repeats this error throughout the
petition. It mischaracterizes the patent claims as
“only” reciting the act of collecting and analyzing data
no fewer than seven times in the petition. See Pet i
(“only . . .”), 5 (“standing alone . . .”), 10 (“merely . . .”),
12 (“simply . . .”), 16 (“without more . . .”), 18 (“only
. . .”), 22 (“simply . . .”). But no matter how many
times petitioner repeats it, this is not what the claims
recite, as both courts below recognized.
Petitioner likewise characterizes contested facts in
its favor. For example, petitioner asserts (at 7) that
“[t]here is no dispute that hierarchical network
monitoring— and, indeed, all elements of the asserted
claims—were well known before the patents were
filed.” But not only is there a “dispute” about that
question, that dispute was actually resolved in
respondent’s favor when the courts below rejected
petitioner’s argument that the patents were invalid
because they were “anticipat[ed].” See Pet. App. 6a;
also id. at 9a n.2 (noting the patents also previously
“survived multiple anticipation challenges”). And
despite pursuing an inordinate number of invalidity
theories below, petitioner did not even attempt to
argue at trial that the patents were invalid on the
ground of obviousness. Indeed, respondent’s patents
have been found non-obvious and non-anticipated by
every fact-finder to have considered them. That could
not have been the case if, as petitioner asserts, “all

14
elements of the asserted claims” “were well known
before the patents were filed.” Pet. 7.
Petitioner’s mischaracterization of these critical
facts, and attempt to secure review based on a false
premise, alone calls for denying the petition.
II. THERE IS NO “INTRA-CIRCUIT SPLIT”
When all is said and done, petitioner ’s claim of an
“intra-circuit split” (Pet. 12, 15, 18) boils down to one
case—Electric Power Group, LLC v. Alstom S.A., 830
F.3d 1350 (Fed. Cir. 2016). As the panel below itself
explained, however, there is no conflict between its
holding here and that in Electric Power because of the
differences in the claim terms. And, even if there
were, any disagreement would be limited to the
factual similarity or dissimilarity between the patent
claims in the two cases, not any dispute over the
governing law, which all sides agree upon.
1. Electric Power involved patents that claimed a
“method of detecting events on an interconnected
electric power grid . . . and automatically analyzing
the events on [that] grid.” 830 F.3d at 1351. Unlike
the patents here, those in Electric Power did not
involve a specific method of analyzing the data, nor
did they specify—and narrow down—the data to be
investigated. Rather, the claims in Electric Power
generically referenced information from a “plurality
of data streams” without ever identifying what those
data streams were. Id. Nor did the applicant in
Electric Power claim any specific method for
analyzing the data—such as the hierarchical
structure claimed here. As the panel below explained,
“[t]he Electric Power claims were drawn to using
computers as tools to solve a power grid problem,
rather than improving the functionality of computers

15
and computer networks themselves.” Pet. App. 14a.
Here, by contrast, “the representative claim improves
the technical functioning of the computer and
computer networks by reciting a specific technique for
improving computer network security.” Id. (emphasis
added).
In any event, the Federal Circuit below did not
hold that the legal principle applied in Electric Power
was incorrect or required modification; it held that
the claims at issue in this case are different. Id.
Petitioner thus overreaches again in asserting that
the decision below “will permit individual panels to
choose whether to follow the Electric Power rule” or
the “rule crafted by the majority in this case.” Pet. 16.
The Federal Circuit in both this case and Electric
Power applied the same “rule”; it just reached a
different result based on the particular patent claims
before it. A subsequent panel will simply have to
inquire whether the claim before it involves only
“collecting and analyzing information,” Electric
Power, 830 F.3d at 1354, or whether, as the Federal
Circuit found here, it advances a “specific technique”
of collection and analysis, limited to enumerated and
carefully defined “specific types of data.” Pet. App.
12a.3 That is, a panel will simply have to apply the
law to the particular claims before it.

3

Petitioner similarly asserts (at 16) that the decision will
“place the imprimatur of the Federal Circuit on patents that
claim nothing more than the basic ‘moving of information.’” But,
again, that argument assumes a false premise—that the panel
established a legal rule that the mere “moving of information” is
patent-eligible.
The Federal Circuit here disagreed with
petitioner that respondent’s claims in fact involved “the mere
moving of information.” See Pet. App. 12a-13a.

16
2. Petitioner also attempts (at 20-21 nn.5-6) to
bury the cases to which the panel analogized this
case—Enfish, LLC v. Microsoft Corp., 822 F.3d 1327
(Fed. Cir. 2016) and DDR Holdings, LLC v.
Hotels.com, L.P., 773 F3d 1245 (Fed. Cir. 2014),
discussed at Pet. App. 14a. Those cases, like the
decision below, illustrate the line between claims that
involve a “specific asserted improvement in computer
capabilities” (which is patent eligible) and an
otherwise “‘abstract idea’ for which computers are
invoked merely as a tool” (which is not). Enfish, 822
F.3d at 1335-36; see DDR Holdings, 773 F.3d at 1257
(distinguishing claims that “merely recite the
performance of some business practice known from
the pre-Internet world along with the requirement to
perform it on the Internet,” with those that provide a
“solution . . . necessarily rooted in computer
technology in order to overcome a problem specifically
arising in the realm of computer networks”).
The petition itself appears to embrace this
distinction, stating (at 13) that “the Electric Power
court followed Alice in drawing a careful line between
patents
that
claim
‘computer-functionality
improvements’ and those that merely use ‘existing
computers as tools in aid of processes focused on
‘abstract ideas.’” But, as the petition concedes, that is
the very distinction relied upon by the panel below.
See Pet. 15 (“The majority asserted generally that this
case involved a ‘specific technique’ for improving the
functionality of computers . . . rather than simply
using a computer as a tool . . . .”). Petitioner’s
objection is again not to the validity of the legal rule,
but to how to apply the rule to the facts here—in
petitioner’s view, the panel “did not identify precisely
how th[e] specific technique” improved computer

17
functionality and “went beyond the abstract idea of
collecting and analyzing data.” Id. Again, even
assuming petitioner were correct, its challenge is
limited to the fact-bound application of a settled legal
principle.
Indeed, the panel’s reliance on Enfish and DDR
Holdings, and petitioner’s own assertion that those
cases align with Electric Power and Alice, only
underscores that the panel did not adopt any sort of
new categorical rule, but rather carefully applied
established legal principles to the different facts
presented by each of these cases. That is not an
“intra-circuit split”; it represents the conventional
application of settled law to different facts. Nothing
about the panel’s application of prior Federal Circuit
precedent here will have an effect on subsequent
cases involving different claims; nor does it warrant
this Court’s review.
3. Going further afield, petitioner asserts that
this Court should grant review so it can correct a
guidance from the United States Patent and
Trademark Office (USPTO or PTO), which it claims
“has created an entirely new doctrinal distinction in
its difficult bid to make sense of the ruling in this
case.” Pet. 17. That argument fails, too. First, the
distinction petitioner attacks—between claims that
merely recite a “mental process” and claims that
cannot “‘practically be performed in the human
mind’”—is neither novel nor incorrect. Id. at 12, 17
(citation omitted). The section of the PTO Guidance
that petitioner quotes lists the decision below—in a
“see also” cite—as one of eight cases in support of that
principle. Id. at 9, 12-18 (citing USPTO, October 2019
Update: Subject Matter Eligibility (Oct. 17, 2019),
https://www.uspto.gov/sites/default/files/documents/

18
peg_oct_2019_update.pdf). That hardly reflects a
“bid to make sense of the ruling in this case.” Id. at
17. Second, and in any event, petitioner states that
“the panel majority . . . relied on an entirely different
. . . ground” than this distinction. Id. (emphasis
added).
In short, the decision below presents no conflict
with any decision warranting this Court’s review.
III. THE DECISION BELOW IS CORRECT AND
A ROUTINE APPLICATION OF ALICE
Review is also not warranted because the decision
below faithfully and correctly applies this Court’s
settled precedents to the particular claims at issue.
In Alice, this Court held that a claim was ineligible
for patent protection because it was merely a “generic
computer
implementation”
of
“intermediated
settlement, i.e., the use of a third party to mitigate
settlement risk”—“‘a fundamental economic practice
long prevalent in our system of commerce.’” 573 U.S.
at 219 (citation omitted). The Court rejected the
notion that the “abstract-ideas category is confined to
‘preexisting, fundamental truth[s]’ that ‘exis[t] in
principle apart from any human action.’” Id. at 220
(alterations in original) (citation omitted). Instead,
the Court recognized that a “longstanding . . .
practice” or “method of organizing human activity”
would—without more—be ineligible for protection.
Id. And the fact that the claim involved a “generic
computer implementation” of this “longstanding”
practice, the Court explained, did not transform it
into a patent-eligible innovation. Id. at 221. At the
same time, however, the Court recognized—as even
petitioner begrudgingly acknowledges (at 19)—that
an idea that “improve[d] the functioning of the

19
computer itself” can be patent eligible. 573 U.S. at
225.
The Federal Circuit decision below is fully
consistent with those principles. As explained above,
the claims here do not involve a “generic”
implementation of a “longstanding . . . practice,” but
a specific method for addressing a previously
intractable problem in computer security—one that
“improve[d] the functioning of the computer itself.”
Id. at 220, 225. Prior to respondent’s claimed
invention, network defense systems that monitored
network traffic were unable to automatically detect
large-scale attacks in real-time. The claims recite a
specific way to address this problem: using a
structure of monitors, arrayed in a specific way (in a
hierarchy), that are programmed to detect suspicious
activity based on analysis of only certain types of
data. Supra at 11-12.
That technology took years to develop, through
partial funding by the Department of Defense, which
called it a “gem in the world of cyber defense” and “a
quantum leap improvement over” previous
technology. Pet. App. 7a (citations omitted). And
multiple industry-leading businesses have taken
licenses to the patents. The relevant patents have
also been found to be novel and nonobvious numerous
times; indeed, as noted above, petitioner did not even
present an obviousness defense at trial, and its
anticipation defense has twice been rejected by the
Patent Office, and by a district court in prior
litigation, as well as by the courts below.
Unsurprisingly, petitioner does not challenge these
obviousness and anticipation rulings here. But those
rulings would have made no sense if, as petitioner
asserts, the claimed technology was merely a “generic

20
computer implementation” of a “longstanding”
practice. Pet. 18. Rather, as the panel below
recognized, respondent’s technology does not merely
use a computer to perform certain tasks more
efficiently, but actually improves the functioning of
the computer itself. Pet. App. 14a. The panel’s
decision thus fits hand-in-glove with Alice.
Petitioner’s argument on the merits rests, again,
on characterizing the claims as “only the abstract idea
of collecting and analyzing data to detect suspicious
activity.” Pet. 18. In petitioner’s view, “[t]his is no
different from a city’s police force monitoring ongoing
criminal behavior and pooling data to be alert to
largescale dangers.” Id. at 18-19. But that is a gross
oversimplification.
Indeed, as this Court has
explained, “[a]t some level, ‘all inventions . . . embody,
use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.’” Alice, 573
U.S. at 217 (emphasis added) (alteration in original)
(citation omitted).
Accordingly, any invention,
defined sufficiently broadly, can be characterized as
an “abstract idea[]” or an analogue to some human
activity. Id. Alice thus cautions against such
overgeneralizations and, instead, calls on the courts
to carefully review the claims at issue.
As the Federal Circuit and district court found, the
claims at issue here in fact are subject to specific
limitations: they involve a specific method of
hierarchical monitoring and identify specific
categories of network traffic data to be analyzed.
Those limitations have been central to the conclusions
of the numerous fact-finders who have uniformly
come to the conclusion that respondent’s invention is
innovative and entitled to patent protection. The

21
lower courts’ fact-bound application of this Court’s
Alice framework does not warrant further review.
IV. THIS CASE IS A POOR VEHICLE FOR THE
COURT’S REVIEW
The petition suffers from glaring vehicle defects as
well. The most obvious is that the decision below does
not in fact present the Question Presented. As
discussed, the Federal Circuit did not hold “patent
claims that recite only the abstract idea of collecting
and analyzing data are patent-ineligible under 35
U.S.C. § 101 and Alice.” Pet. i. Respondent has never
even argued that “collecting and analyzing data”
“without more” constitutes a patent-eligible
innovation. Id. at 19. If certiorari were granted, both
sides would agree as to the applicable legal standard,
and the dispute would simply be over the facts of this
case and the scope of the relevant technology. The
Question Presented is simply not implicated. Even if
there were cause to address or clarify the Alice
framework, the Court should wait for a case where
there is an actual dispute between the parties as to
the applicable legal standard.4
4

The United States has recently suggested that this Court
address, in an appropriate case, confusion regarding the
application of Section 101’s “law of nature” exception in the
context of medical device patents. U.S. Invitation Br. 10-13,
Hikma Pharm. USA Inc. v. Vanda Pharm. Inc., No. 18-817 (Dec.
6, 2019); U.S. Invitation Br. 12-13, Hewlett-Packard Co. v.
Berkheimer, No. 18-415 (Dec. 6, 2019). That issue bears little
relevance to the Question Presented here or this case, which does
not involve a medical device patent. And the United States’
broader suggestion that this Court re-visit whether exceptions
for “laws of nature, physical phenomena, and abstract ideas” are
warranted at all would, of course, not benefit petitioner—and, in

22
Furthermore, the panel here only assessed
eligibility under the first step of the Alice framework.
But, as this Court has explained, even if a claim is
directed to a patent ineligible idea, a court must
“consider the elements of each claim both individually
and ‘as an ordered combination’ to determine whether
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application.” Alice, 573
U.S. at 217 (citations omitted). The Federal Circuit
did not reach this second step because it held that the
claims here were not directed to a patent-ineligible
idea. Thus, even if the Court were to reverse that
holding, the claims would be entitled to patent
protection on the basis of the multiple specified
“additional elements” beyond the “processing and
analyzing of data.” The fact that the Question
Presented (even if actually presented) would not be
outcome-determinative in this case provides another
reason for this Court to decline review.
Finally, the manner in which petitioner has
litigated this case also counsels against certiorari. As
the district court found and the panel recognized,
“‘Cisco pursued [this] litigation about as aggressively
as the court has seen in its judicial experience,’”
any event, it is not fairly included in the Question Presented.
Nor has it been pressed by any party here or addressed below.
This case is not an appropriate vehicle to address that issue.
Moreover, this Court recently denied certiorari in a medical
device case in which the United States recommended certiorari,
along with several other cases presenting Section 101 issues.
See Athena Diagnostics, Inc. v. Mayo Collaborative Servs., LLC,
No. 19-430 (certiorari denied Jan 13, 2020); Hikma Pharm. USA
Inc. v. Vanda Pharm. Inc., No. 18-817 (certiorari denied Jan 13,
2020); HP Inc., fka Hewlett-Packard Co. v. Berkheimer, No. 18415 (certiorari denied Jan 13, 2020). There is no reason to do
any different here.

23
including by “maintaining nineteen invalidity
theories until the eve of trial but only presenting two
at trial and pursuing defenses at trial that were
contrary to the court’s rulings or Cisco’s internal
documents.”
Pet. App. 28a (citation omitted).
Petitioner’s aggressiveness has continued in this
Court, where it has mischaracterized both the
Federal Circuit’s decision and the Question
Presented. See supra at 9-10. The only argument
petitioner chose to renew here, its Section 101 claim,
is in fact a late bloomer in this case. The Federal
Circuit correctly rejected that argument, and there is
no basis for this Court to reward petitioner’s
aggressive litigation tactics by granting review here.5

5

Petitioner’s attempt (at 5 n.1) to link its petition with the
petition in Trading Technologies International, Inc. v. IBG LLC,
No. 19-353, also fails.
The cases involve very different
underlying technologies, and the Questions Presented are
entirely different. The dispute in that case is over whether
“computer-implemented inventions that provide useful user
functionality but do not improve the basic functions of the
computer itself” are eligible for patent protection. Pet. i, Trading
Techs. Int’l, Inc. v. IBG LLC, No. 19-353 (Sept. 16, 2019). But
petitioner’s Question Presented here does not implicate that
distinction at all. And, in fact, both courts below found that
respondent’s technology not only provides useful functionality,
but also does “improve[] the technical functioning of the
computer [itself].” Pet App. 14a; see id. at 51a-52a. In any event,
nothing in Trading Technologies alters or eliminates the reasons
against granting certiorari in this fact and claim-specific case.
No matter how this Court disposes of the petition in Trading
Technologies, the petition in this case should be denied.

24
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
JOHN W. THORNBURGH
FRANK. ALBERT
FISH & RICHARDSON, P.C.
12390 El Camino Real
San Diego, CA 92130
DAVID M. HOFFMAN
FISH & RICHARDSON, P.C.
Suite 810
111 Congress Avenue
One Congress Plaza
4th Floor
Austin, TX 78701

FRANK E. SCHERKENBACH
Counsel of Record
FISH & RICHARDSON, P.C.
One Marina Park Drive
Boston, MA 02210
(617) 521-7883
scherkenbach@fr.com
PROSHANTO MUKHERJI
FISH & RICHARDSON, P.C.
One Marina Park Drive
Boston, MA 02210

HOWARD G. POLLACK
FISH & RICHARDSON, P.C.
Suite 500
500 Arguello Street
Redwood City, CA 94063

Counsel for Respondent
January 15, 2020

